         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Early Warning Report




       Observed Conditions at
       Five Deleted Superfund Sites
       Report No. 11-P-0433 


       August 3, 2011

   Report Contributors:                            Rick Beusse
                                                   Kevin Good
                                                   Jim Hatfield
                                                   Michael Young




Abbreviations

ARCHER          Airborne Real-time Cueing Hyperspectral Enhanced Reconnaissance
EPA             U.S. Environmental Protection Agency
I-RBC           Industrial risk-based concentration
NPL             National Priorities List
OIG             Office of Inspector General
PPM             Parts per million
R-RBC           Residential risk-based concentration
USGS            U.S. Geological Survey
XRF             X-ray fluorescence


Cover photo:	     U.S. Air Force Civil Air Patrol airplane equipped with the Airborne Real-time
                  Cueing Hyperspectral Enhanced Reconnaissance System (ARCHER).
                  (USGS photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                                 11-P-0433
                                                                                                          August 3, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review 	            Observed Conditions at Five Deleted
We initiated this evaluation to     Superfund Sites
assess whether the U.S.              What We Found
Environmental Protection
Agency (EPA), Office of             Conditions at two of the five sites we visited in EPA Region 3, which had been
Inspector General, can use          remediated and deleted from the National Priorities List, may warrant additional
hyperspectral imaging data as a     attention from EPA. Hyperspectral imaging data, on-site testing, and/or soil
feasible oversight tool to assess   samples revealed issues at the Middletown Road Dump site in Annapolis,
the effectiveness of prior          Maryland, and the Matthews Electroplating site in Roanoke County, Virginia.
Superfund remediations, or to       We do not believe conditions at the other three sites visited warrant additional
target areas for assessment.        consideration from EPA.

                                    The Middletown Road Dump site, formerly a dump for construction waste, was
Background
                                    found to have expanded in size since EPA’s latest Five-Year Review.
The Office of Inspector General     Hyperspectral imaging data identified an anomaly that proved to be leachate
entered into an interagency         coming from the landfill. Our on-site testing also indicated hydrocarbons
agreement with the U.S.             pooling in surface waters, and soil samples collected at the site contained
Geological Survey, Eastern          arsenic, chromium, mercury, and antimony at levels exceeding established
Geographic Science Center, to       residential risk-based concentrations.
develop and test hyperspectral
remote sensing technologies for     The Matthews Electroplating site, formerly a chrome-plating operation,
the detection of fugitive and       contained waste metal, empty drums, and containers. Soil samples taken at the
residual contamination at           site contained arsenic, nickel, and antimony at levels exceeding EPA’s
deleted Superfund waste sites.      established risk-based concentrations for residential areas. We also observed
Subsequently, the U.S.              that the current landowner had started building a residence on the site.
Geological Survey entered into
                                    We did not make any conclusions regarding potential health risks or the
an interagency agreement with
                                    effectiveness of EPA’s prior remediation efforts, or the usefulness of
the U.S. Air Force Civil Air
                                    hyperspectral imaging data as an oversight tool. We are presenting our results in
Patrol to use its remote sensing
                                    this early warning report so Region 3 can review the information on the sites
system to collect hyperspectral
                                    and take further action if appropriate. Additional work is ongoing to assess the
imagery at five deleted former
                                    usefulness of remote sensing technology as an OIG oversight tool.
National Priorities List sites in
Maryland and Virginia.
                                     What We Recommend
For further information,
contact our Office of               We recommend that EPA Region 3’s Office of Superfund Site Remediation add
Congressional, Public Affairs and   the information in this report to the appropriate site-specific case files and assess
Management at (202) 566-2391.       whether any additional action is warranted for the Matthews Electroplating and
The full report is at:
                                    Middletown Road Dump sites. The Agency agreed with our recommendations,
www.epa.gov/oig/reports/2011/       stating that it has added the information to the case files and requested more
20110803-11-P-0433.pdf              detailed sampling information to assist it in evaluating the two deleted sites. The
                                    region’s ongoing and planned actions meet the intent of our recommendations.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL




                                         August 3, 2011

MEMORANDUM

SUBJECT:	 Observed Conditions at Five Deleted Superfund Sites
          Report No. 11-P-0433


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Ronald Borsellino
               Director, Hazardous Site Cleanup Division, EPA Region 3


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at 202-566-0832 or najjum.wade@epa.gov;
or Rick Beusse at 919-541-5747 or beusse.rick@epa.gov.
Observed Conditions at Five Deleted Superfund Sites                                                                            11-P-0433



                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 1


   Results of Review .......................................................................................................          3


   Conclusions.................................................................................................................       9


   Recommendations ......................................................................................................             9


   Agency Response and OIG Comment ......................................................................                             9


   Status of Recommendations and Potential Monetary Benefits..............................                                           11




Appendices
   A       Middletown Road Dump, Location and Results of Samples..........................                                           12


   B       Matthews Electroplating, Location and Results of Soil Samples..................                                           13


   C       Dixie Caverns Landfill, Location and Results of Soil Samples ......................                                       14


   D       Rhinehart Tire Fire Dump, Location and Results of Soil Samples ................                                           15


   E       Mid-Atlantic Wood Preservers, Location and Results of Soil Samples ........                                               16 


   F       Region 3 Response to Draft Report..................................................................                       17


   G       Distribution .........................................................................................................    19

   Purpose

            We initiated this evaluation to assess whether the U.S. Environmental Protection
            Agency (EPA), Office of Inspector General (OIG), can use hyperspectral imaging
            data as a feasible oversight tool to assess the effectiveness of prior Superfund
            remediations, or to target areas for assessment. This early warning report presents
            information obtained during the interim phase of our work. Additional work is
            ongoing to assess the usefulness of remote sensing technology as an OIG
            oversight tool.

   Background
            EPA OIG Report No. 2007-P-00039, Limited Investigation Led to Missed
            Contamination at Ringwood Superfund Site, issued September 25, 2007,
            documented problems with insufficient characterization of contamination and
            cleanup at the Ringwood, New Jersey, National Priorities List (NPL) Superfund
            site. One of the key findings of the report was that the extent of contamination at
            the Ringwood site might have been detected earlier if EPA had made greater use
            of available aerial photographs. Morphological characteristics of the landscape
            and landscape changes, as documented on historical aerial photographs, could
            have detected the much larger extent of paint sludge and contamination than was
            thought to exist after the initial remedial investigation.

            Based on the results of the Ringwood report, the OIG decided to evaluate whether
            remote sensing technologies could be an effective tool for the OIG in assessing
            long-term remediation conditions at Superfund sites deleted from EPA’s NPL.
            Remote sensing is the acquisition of information on an object by use of a sensing
            device(s) not in physical contact with the object. Hyperspectral imaging, an
            advanced form of remote sensing, records reflected and emitted electromagnetic
            energy in hundreds of very narrow wavelengths, resulting in data that can be
            analyzed with chemical spectroscopic techniques. Hyperspectral imaging may be
            able to detect the electromagnetic signatures of pollutants in vegetation at deleted
            Superfund sites, which could be indicative of residual or previously undetected
            contamination.

   Scope and Methodology

            The OIG entered into an interagency agreement with the U.S. Geological Survey
            (USGS), Eastern Geographic Science Center, to develop and test hyperspectral
            remote sensing technologies for the detection of fugitive and residual
            contamination at deleted Superfund waste sites. Subsequently, USGS entered into
            an interagency agreement with the U.S. Air Force Civil Air Patrol to use its
            Airborne Real-time Cueing Hyperspectral Enhanced Reconnaissance (ARCHER)
            system to collect hyperspectral imagery at the following five deleted NPL sites in
            Maryland and Virginia:


11-P-0433                                                                                         1
                   1. 	Middletown Road Dump, Annapolis, Maryland
                   2. 	Matthews Electroplating, Roanoke County, Virginia
                   3. 	Dixie Caverns Landfill, Roanoke County, Virginia
                   4. 	Rhinehart Tire Fire Dump, Frederick County, Virginia
                   5. 	Mid-Atlantic Wood Preservers, Harmans, Maryland

            A primary factor in selecting these sites was the availability of the U.S. Air Force
            Civil Air Patrol to use its ARCHER system to collect remote sensing data in the
            region. We also considered geographic information, such as where the
            predominance of sites existed and proximity of sites to one another; the media and
            type of contaminant; and the size, original condition, and cleanup costs of the site.

            The ARCHER system provides:
                   	 Spectral signature matching—by comparing reflected
                      electromagnetic radiation against a library of spectral signatures to
                      identify specifically targeted objects.
                    Anomaly detection—by comparing reflected electromagnetic
                      radiation against a continuously calculated background spectrum.
                      Spectral anomalies are flagged as potential targets for further
                      evaluation.
                   	 Change detection—by conducting a pixel-by-pixel comparison of
                      ground conditions between current and past images.

            After collecting and analyzing the ARCHER data, USGS and OIG representatives
            visited all five sites to collect soil and sediment samples. USGS analyzed the
            samples for hydrocarbons and organic signatures using an Analytical Spectral
            Devices full range spectrometer, and analyzed the samples for metals using x-ray
            fluorescence (XRF) technology.

            This report presents information obtained during the interim phase of our work
            and does not present OIG conclusions regarding the effectiveness of the prior
            remediations or the potential environmental impact of current conditions at the
            five sites. Additional work is planned to assess the usefulness of remote sensing
            technology as an OIG oversight tool. However, the work performed provides a
            reasonable basis to inform EPA as to the conditions observed at the sites
            reviewed. The observations and findings in this report rely on technical analyses
            of soil samples and hyperspectral imaging data conducted by USGS under
            interagency agreement with the OIG. The results of USGS’s analyses were
            published in two reports;

                1.	 Slonecker, E.T. and Fisher, G.B, 2011. Evaluation of Traditional and
                    Emerging Remote Sensing Technologies for the Detection of Fugitive
                    Contamination at Selected Superfund Hazardous Waste Sites.
                    USGS Open File Report 2011-1050



11-P-0433                                                                                       2
                       2.	 Slonecker, E.T. and Fisher, G.B, 2011. Graphic Products Used in the
                           Evaluation of Traditional and Emerging Remote Sensing Technologies for
                           the Detection of Fugitive Contamination at Selected Superfund
                           Hazardous Waste Sites. USGS Open File Report 2011-1068.

                 We also relied on unpublished data provided to us by USGS. This data was
                 primarily background in nature. All test results reported herein were based on
                 peer-reviewed published USGS data obtained under interagency agreement with
                 the OIG.

                 We conducted our review in accordance with generally accepted government
                 auditing standards. Those standards require that we plan and perform the
                 evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
                 for our findings and conclusions based on our evaluation objectives. We believe
                 that the evidence obtained provides a reasonable basis for the information
                 presented in this report.

    Results of Review

                 We collected hyperspectral imaging data for five sites in Virginia and Maryland.
                 These sites had been remediated and deleted from the NPL. We visited the sites to
                 collect soil samples and to follow up on anomalies disclosed by the hyperspectral
                 imaging data. Conditions noted at two sites may warrant attention from EPA
                 Region 3:
                          	 The Middletown Road Dump site, formerly a dump for construction
                             waste, had been expanded since the last Five-Year Review conducted
                             by EPA. Hyperspectral imaging data identified an anomaly that proved
                             to be leachate coming from the landfill. Our on-site testing indicated
                             hydrocarbons in surface waters. In addition, soil samples collected at
                             the site contained arsenic, chromium, mercury, and antimony at levels
                             exceeding EPA’s established residential risk-based concentrations (R-
                             RBCs).

                          	 At the Matthews Electroplating site, formerly a chrome-plating
                             operation, hyperspectral imaging data identified anomalies that proved
                             to be scrap auto bumpers, empty metal containers, and other materials.
                             We also observed that the current landowner was building a residence
                             on the property. Results of our soil sampling showed the presence of
                             arsenic, nickel, and antimony at levels that exceeded EPA’s R-RBC.1

                 At two other sites, Dixie Caverns Landfill and Rhinehart Tire Fire Dump, soil
                 sampling showed the presence of some heavy metals that exceeded the R-RBCs
                 for soil samples. However, these sites were generally secured from public access.

1
  Region 3 uses risk-based concentrations as screening levels to determine whether a site may warrant further
investigation or cleanup. The levels do not represent cleanup standards.


11-P-0433                                                                                                       3
            The other site we visited, Mid-Atlantic Wood Preservers, was located in a
            commercial/industrial setting and was found to be in reuse. The site had been
            paved since the Superfund remedy was accomplished. Analysis of soil samples
            around the edge of the paved area did not disclose concentrations of metals that
            exceeded the industrial risk based concentration (I-RBC) for industrial soil
            samples. Below are the details of conditions found at each of the five sites we
            reviewed.

            Middletown Road Dump Site, Annapolis, Maryland

            The Middletown Road Dump is located in a residential area of Anne Arundel
            County. It is surrounded by residential homes on three sides and has a landscaping
            business located immediately adjacent to the southeast border of the site
            boundary.

            The Middletown Road Dump was shut down by the State of Maryland in 1981
            because it was found to be in violation of state water pollution and hazardous
            waste laws. The site was placed on EPA’s NPL in September 1983 after it was
            found to contain ground and surface water contamination. Following removal
            actions that were completed by the state and EPA Region 3 in December 1983
            and subsequent additional soil testing by the state in 1985, a record of decision
            was issued stating no further remedial action was needed at the site. The site was
            removed from the NPL in April 1988.

            An initial review of the historical aerial photographs, maps, and reports of the site,
            and a comparison with our results from January 2010, indicated that the site area
            has been expanded along the northern border since the last Five-Year Review.
            Anomalies detected in the hyperspectral analysis proved to be areas of a leachate
            discharge coming from the landfill that impacted an unnamed surface stream
            north of the site. Also, drums and other debris were located in this area, although
            soil readings for metals were not elevated in this area.

            A site visit was conducted at the Middletown Road Dump on April 13, 2010.
            Upon visiting the site, we observed an area of jagged terrain consisting of debris
            that had been covered over with soil, and one empty barrel located in a ravine
            near a stream running through the property.

            We collected 32 soil samples and analyzed them for metals and other elements
            such as arsenic and antimony. We compared the results to EPA Region 3’s
            residential screening levels, since residences were located on three of the site’s
            boundaries. Table 1 shows the samples that exceeded the R-RBCs.




11-P-0433                                                                                        4
            Table 1: Middletown Road Dump, soil samples exceeding R-RBCs
                                 Arsenic        Chromium           Mercury           Antimony
             R-RBC               22ppm           230ppm            5.6ppm              31ppm
             MRD-1                  -                -                 -                37.65
             MRD-2                  -                -                 -                32.95
             MRD-3                93.65           433.24               -                  -
             MRD-8                  -                -                 -                35.98
             MRD-9                  -                -                 -                40.34
             MRD-16                 -                -                 -                48.45
             MRD-21                 -                -               7.24                 -
             MRD-30                                  -                 -                35.37
             MRD-32                 -                -               9.67                 -

            Source: Slonecker, E.T. and Fisher, G.B, 2011. Graphic Products Used in the Evaluation
            of Traditional and Emerging Remote Sensing Technologies for the Detection of Fugitive
            Contamination at Selected Superfund Hazardous Waste Sites. USGS Open File Report
            2011-1068, 12 p.

            Note: ppm = parts per million.

            Appendix A shows the location of samples exceeding the R-RBCs. In addition,
            laboratory spectral analysis of very dark soils and dark liquids on the ground
            along the northeast corner of the site indicated the presence of organic
            hydrocarbons.

            Matthews Electroplating Site, Roanoke County, Virginia

            The Matthews Electroplating site is approximately 3 and one-half miles southwest
            of the city of Salem. The property was the site of an automobile bumper repair
            and plating facility from 1972 to 1976. According to EPA’s Five-Year Review
            report conducted in June 2004, there were approximately 150 residences within
            4,000 feet of the site. In 1995, the site was rezoned from industrial to residential.
            A residential home is currently under construction on the site, east of the location
            of the former electroplating shop.

            In 1975, the Commonwealth of Virginia, State Water Control Board, identified
            Matthews Electroplating as a potential source of drinking water contamination
            and began monitoring approximately 30 wells within the area for total chromium,
            hexavalent chromium, nickel, and cyanide. Three residential wells and the
            original on-site well had total chromium concentrations exceeding Virginia’s
            drinking water quality standard (at that time) of 50 micrograms per liter. The
            Matthews Electroplating site was added to EPA’s NPL in September 1983 and
            was deleted in January 1989.

            Hyperspectral imagery of the Matthews Electroplating site was collected on
            November 24, 2009. An initial review of the historical aerial photographs, maps,
            and reports of the site, and a comparison with the recently acquired ARCHER
            imagery, indicated that all of the previous buildings on the site have been


11-P-0433                                                                                            5
            removed and that a small residential structure is being constructed near the center
            of the site. Several anomalies were detected: one in the northwest corner of the
            property and several small anomalies along the southeast area of the property.

            A site visit to Matthews Electroplating was conducted on April 14, 2010. As
            identified by the hyperspectral imagery, a residence is under construction at the
            site with several small outbuildings. Old automobile bumpers were still located on
            the property, as well as tanks and other metal debris left from the electroplating
            operation. These were identified as the hyperspectral anomalies along the
            southeast section of the property that correlated with the outbuildings and the
            waste metal tanks.

            We collected 44 soil samples at the Matthews Electroplating site and analyzed
            them for metals, and other elements such as arsenic and antimony. Table 2 shows
            the samples that exceeded the R-RBCs.

            Table 2: Matthews Electroplating, soil samples exceeding R-RBCs
                                 Arsenic              Nickel              Antimony
             R-RBC               22 ppm             1600 ppm               31 ppm
             ME-5                 25.58                  -                    -
             ME-9                    -                 3104                   -
             ME-16                   -                   -                   42.9
             ME-19                   -                1828.5                  -
             ME-24                   -                   -                   41.1
             ME-30                   -                   -                   32.2
             ME-32                   -                   -                   38.6
             ME-36                26.52                  -                    -
             ME-40                   -                1928.4                  -

            Source: Slonecker, E.T. and Fisher, G.B, 2011. Graphic Products Used in the
            Evaluation of Traditional and Emerging Remote Sensing Technologies for the
            Detection of Fugitive Contamination at Selected Superfund Hazardous Waste
            Sites. USGS Open File Report 2011-1068.

            Note: ppm = parts per million.

            Appendix B shows the location of samples exceeding the R-RBCs. Laboratory
            hyperspectral analysis of the soils from Matthews Electroplating showed no
            evidence of hydrocarbons.

            Dixie Caverns Landfill Site, Roanoke County, Virginia

            The Dixie Caverns Landfill site is located near the city of Salem. The site
            operated as a municipal solid waste disposal area for Roanoke County from June
            1965 through July 1976. The site was added to EPA’s NPL in October 1989 and
            was deleted in September 2001.




11-P-0433                                                                                     6
            Hyperspectral imagery of the Dixie Caverns Landfill was collected on
            September 24, 2009. Several anomalies were detected in the area but were
            explained during the field visit. The most unique of these were the last few
            concrete blocks that were formed as part of the remedial process. Remote sensing
            analysis for potential hydrocarbons in the soil did not identify any hydrocarbons
            in the samples.

            The site visit was conducted on April 16, 2010. Thirty-one soil samples were
            collected and analyzed in the laboratory with XRF analysis. Table 3 shows the
            samples that exceeded the R-RBCs.
            Table 3: Dixie Caverns Landfill, soil samples exceeding R-RBCs
                         Lead     Arsenic    Mercury   Cobalt    Manganese     Chromium      Antimony
                         400
             R-RBC       ppm      22 ppm     5.6 ppm   23 ppm     1800 ppm      230 ppm       31 ppm
             DCL-1         -         -          -        -                          -            -
             DCL-2         -         -          -      202.5                        -            -
             DCL-3         -         -          -      154.0                        -            -
             DCL-4         -        42.1        -        -                          -            -
             DCL-5         -        27.4        -        -                          -            -
             DCL-6         -        22.9        -        -                          -            -
             DCL-8         -        26.6        -      149.8                        -            -
             DCL-9         -         -        8.71     153.1                        -            -
             DCL-10        -        36.8        -        -                          -            -
             DCL-21     510.6       26.0        -        -                          -            -
             DCL-23        -        25.7        -        -                          -            -
             DCL-24        -        26.5        -        -         2456.5         249.4          -
             DCL-25        -         -          -        -                          -          31.8

            Source: Slonecker, E.T. and Fisher, G.B, 2011. Graphic Products Used in the Evaluation of
            Traditional and Emerging Remote Sensing Technologies for the Detection of Fugitive
            Contamination at Selected Superfund Hazardous Waste Sites. USGS Open File Report 2011-1068.

            Note: ppm = parts per million.

            Appendix C shows the location of samples exceeding the R-RBCs. Although soil
            sampling showed the presence of some heavy metals that exceeded the R-RBCs,
            this site was secured from public access.

            Rhinehart Tire Fire Dump Site, Frederick County, Virginia

            The Rhinehart Tire Fire Dump site is located in a rural setting near Winchester.
            Site security is provided by the enclosed nature of the land parcel, and
            surrounding access is limited by private property. The site was used as a tire
            disposal area from 1972 to 1983. The site was added to EPA’s NPL in June 1986
            and was deleted in September 2005.




11-P-0433                                                                                              7
            Hyperspectral imagery of the Rhinehart Tire Fire Dump site was collected on
            October 19, 2009. The only significant anomaly detected proved to be concrete
            structures related to the abandoned treatment facility and incinerator.

            A site visit was conducted on April 20, 2010. Old tires were discovered in the
            wooded area to the immediate north of the site. We collected and analyzed 52 soil
            samples at the site. Table 4 shows the samples that exceeded the R-RBCs.

            Table 4: Rhinehart Tire Fire, soil samples exceeding R-RBCs
                                 Arsenic         Mercury          Cobalt        Manganese        Antimony
             R-RBC               22 ppm          5.6 ppm          23 ppm         1800 ppm         31 ppm
             RTF-7                   -               -             118.7             -               -
             RTF-8                   -               -             123.4             -               -
             RTF-10                26.4              -               -               -              58.0
             RTF-11                26.4              -               -               -              34.6
             RTF-12                26.7              -             679.7             -              32.0
             RTF-13                27.3              -             290.5             -               -
             RFT-24                  -               -               -               -              41.8
             RTF-25                46.2              -               -            1815.0            45.0
             RTF-27                  -               -               -               -              35.1
             RTF-32                  -               -               -               -              31.1
             RTF-35                  -               -               -            2330.4             -
             RTF-36                  -               -               -            2547.4             -
             RTF-38                  -              9.5              -               -              31.2
             RTF-41                  -              9.2              -               -              39.0
             RTF-42                  -               -               -               -              37.5
             RTF-45                  -               -               -               -              32.7
             RTF-51                22.5              -               -            2349.2            54.8

            Source: Slonecker, E.T. and Fisher, G.B, 2011. Graphic Products Used in the Evaluation of
            Traditional and Emerging Remote Sensing Technologies for the Detection of Fugitive Contamination
            at Selected Superfund Hazardous Waste Sites. USGS Open File Report 2011-1068.

            Note: ppm = parts per million.

            Appendix D shows the location of samples exceeding the R-RBCs. Although soil
            sampling showed the presence of some heavy metals that exceeded the R-RBCs,
            this site was generally secured from public access due to the enclosed nature of
            the land parcel and surrounding access limited by private property.

            Mid-Atlantic Wood Preservers Site, Harmans, Maryland

            For the Mid-Atlantic Wood Preservers site, surrounding land use is mixed
            industrial and residential. The site is paved over with asphalt. Adjacent properties
            contain asphalt parking lots and light industrial buildings. A private residence is
            located approximately 500 feet south of the site. The Mid-Atlantic Wood


11-P-0433                                                                                                  8
            Preservers site was used from 1974 to 1993 as a chromated copper arsenate
            waterborne wood treatment facility. The site was listed on EPA’s NPL in June
            1986 and was deleted in July 2000.

            Hyperspectral imagery of the Mid-Atlantic Wood Preservers site was collected on
            January 18, 2010. Since the Superfund remedy was implemented, the site has
            been almost completely paved over. No remote sensing analysis of vegetation
            stress, anomalies, or chemical contamination identification could be effectively
            performed. Imagery does show the site to be actively engaged in transportation
            operations, with numerous tractor trailers and large vehicles parked on the
            property.

            A site visit was conducted on August 5, 2010. Fifteen samples were collected
            around the edges of the pavement to determine whether any residual
            contamination was present. None of the sample measurements exceeded the
            I-RBCs at the Mid-Atlantic Wood Preservers site. Appendix E shows the
            locations of soil samples collected at this site.

Conclusions

            Site conditions and soil sampling results at two sites may warrant EPA’s
            attention. Soil samples at these two sites exceeded risk-based screening levels for
            certain metals. One of the sites was still being used as a landfill, and the current
            owner of the other site was constructing a residence at the site. Conditions at the
            other three sites did not appear to present significant concerns, but the results of
            our analyses and observations are presented in this report for EPA’s information.

Recommendations

            We recommend that the Director, Hazardous Site Cleanup Division, EPA
            Region 3, instruct the Associate Director, Office of Superfund Site Remediation,
            EPA Region 3, to:

                   1.	 Add the information in this report to the appropriate site-specific case
                       files for each of these sites.

                   2.	 Assess whether any additional action is warranted for the Middletown
                       Road Dump and Matthews Electroplating sites.

Agency Response and OIG Comment
            The region agreed with our recommendations. For recommendation 1, the region
            stated that it has reviewed the information and added the OIG’s early warning
            report to the two site-specific files on June 20, 2011. For recommendation 2, the
            region requested more detailed site information from us to help the region assess
            whether additional action is warranted for the Middletown Road Dump and


11-P-0433                                                                                         9
            Matthews Electroplating sites. We provided Region 3 with additional information
            regarding these two deleted sites on July 7, 2011. Region 3 stated that it would
            complete recommendation 2 by October 2011. The region’s planned actions meet
            the intent of our recommendations. As such, we are closing recommendations 1
            and 2 upon report issuance in our tracking system. The Agency’s full response is
            in appendix F.




11-P-0433                                                                                 10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                         Subject                          Status1       Action Official           Date      Amount      Amount

     1        9        Instruct the Associate Director, Office of           C       Director, Hazardous Site    06/20/11
                       Superfund Site Remediation, EPA Region 3,                       Cleanup Division,
                       to add the information in this report to the                      EPA Region 3
                       appropriate site-specific case files for each of
                       these sites.

     2        9       Instruct the Associate Director, Office of            O       Director, Hazardous Site    October
                      Superfund Site Remediation, EPA Region 3, to                     Cleanup Division,         2011
                      assess whether any additional action is                            EPA Region 3
                      warranted for the Middletown Road Dump and
                      Matthews Electroplating sites.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0433                                                                                                                                     11
                                                                                   Appendix A

                        Middletown Road Dump,
                     Location and Results of Samples




Source: Imagery produced by USGS using the Civil Air Patrol’s ARCHER technology.




11-P-0433                                                                                  12
                                                                                   Appendix B

                      Matthews Electroplating,
                Location and Results of Soil Samples




Source: Imagery produced by USGS using the Civil Air Patrol’s ARCHER technology.




11-P-0433                                                                                  13
                                                                                   Appendix C

                       Dixie Caverns Landfill,
                Location and Results of Soil Samples




Source: Imagery produced by USGS using the Civil Air Patrol’s ARCHER technology.




11-P-0433                                                                                  14
                                                                                   Appendix D

                     Rhinehart Tire Fire Dump,
                Location and Results of Soil Samples




Source: Imagery produced by USGS using the Civil Air Patrol’s ARCHER technology.




11-P-0433                                                                                  15
                                                                                   Appendix E

                    Mid-Atlantic Wood Preservers,
                 Location and Results of Soil Samples




Source: Imagery produced by USGS using the Civil Air Patrol’s ARCHER technology.




11-P-0433                                                                                  16
                                                                                    Appendix F

                 Region 3 Response to Draft Report

                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                       REGION III

                                   1650 Arch Street 

                        Philadelphia, Pennsylvania 19103-2029




                                          June 21, 2011
MEMORANDUM

TO:	           Wade T. Najjum
               Assistant Inspector General for Program Evaluation

FROM:	         Ronald J. Borsellino
               Director, Hazardous Site Cleanup Division, EPA Region 3

SUBJECT:	 Response to Evaluation Report: Draft Early Warning Report: Observed
          Conditions at Five Deleted Superfund Sites
          Project No. 2008-0123, May 23, 2011

Attached is the Region III’s response to the Office of Inspector General (“OIG”) Draft Early
Warning Report, Observed Conditions at Five Deleted Superfund Sites, Project No. 2008-
0123,dated May 23, 2011. Outlined below are the Region’s responses to the recommendations
and a corrective action plan for agreed upon actions, including estimated milestone timeframes.

OIG Recommendation #1

Add the information in the Early Warning Report to the appropriate site-specific case files for
the Middletown Road Dump and the Matthews Electroplating Sites.

Corrective Action

Region 3 has reviewed the information and added the Early Warning report to the site-specific
files for the two Sites on June 20, 2011. However, the Region requests the full data reports
including the exact location, depth, etc. of the soil samples collected.

OIG Recommendation #2

Assess whether any additional action is warranted for the Middletown Road Dump and
Matthews Electroplating Sites.



11-P-0433                                                                                         17
Corrective Action

Middletown Road Dump: The Remedial Project Manager and Risk Assessor assigned to the Site
reviewed the OIG Report. Upon review of the data reported in Table 1 and the map attached in
Appendix A, there doesn’t appear to be any pattern or specific area where the detections are
noted. One sample indicated the detections of arsenic and chromium. Two of the sample
locations indicated the detections of mercury and the remaining six sample locations detected
antimony. The map includes no information on depth or concentration.

However, based on the general information provided in the Early Warning Report, the Region
believes further evaluation of the data is warranted and additional sampling may be conducted.
However, the full data reports along with field notes are requested so that the Region can make
the final determination as to whether additional follow-up sampling is necessary.


Matthews Electroplating: The Remedial Project Manager assigned to the Site reviewed the OIG
Report. Upon review of Table 2 and the map attached in Appendix B, the closest ‘hits’ to what
appears to be the residential building are two locations approximately 40 feet from the structure
where nickel exceeded its R-RBC. The closest hits for arsenic and antimony were approximately
80 and 100 feet away, respectively. The map includes no information on concentration or depth.

However, based upon the OIG findings, the Region believes further evaluation of the data with
the regional toxicologist is warranted. Please provide the Region with the following information:

   	 All data from the soil sampling effort, including depths of soil where samples were
      taken and results of any samples of the contents (if any) of drums reportedly found.

   	 All field notes/data on the automotive bumpers, drums, other artifacts and debris 

      found during the site visit. 


Upon receipt of the above information the Region will then determine if further sampling of
Matthews Electroplating is warranted.




11-P-0433                                                                                         18
                                                                              Appendix G

                                    Distribution
Office of the Administrator 

Assistant Administrator for Solid Waste and Emergency Response 

Regional Administrator, Region 3 

Deputy Regional Administrator, Region 3 

Agency Followup Official (the CFO) 

Agency Followup Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Education 

Director, Hazardous Site Cleanup Division, Region 3 

Associate Director, Office of Superfund Site Remediation, Region 3 

Audit Followup Coordinator, Region 3 

Audit Followup Coordinator, Office of Solid Waste and Emergency Response 





11-P-0433                                                                             19
